GR-40-98-014
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
Office of Justice Programs
Grants to Encourage Arrest Policies to the
Cobb County, Georgia, Board of Commissioners
Grant No 97-WE-VX-0026
 
GR-40-98-014
 
July 1998
 
 

EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of a grant
number 97-WE-VX-0026, awarded by the U.S. Department of Justice, Office of Justice
Programs (OJP) to the Cobb County, Georgia, Board of Commissioners (the County). The
County received a $190,070 grant to develop a uniform domestic violence arrest protocol
under the Grants to Encourage Arrest Policies program. The grant period was March 1, 1997
through September 30, 1998. The purpose of the Grants to Encourage Arrest Policies program
is to combat violence against women.

In brief, our audit determined the County:



charged unallowable costs of $5,588 to the grant. Specifically, the County claimed the
      salary of an on-call Assistant District Attorney ($1,500) and fringe benefits of an
      Administrative Technician ($3,509) that were not approved by OJP, claimed lodging costs
      higher than allowed by Federal per diem ($180), and had not used an air fare credit
      ($399).



had not implemented one grant objective of creating a regional domestic violence
      offender database to track offenders and acts of violence. As such, at least $4,684
      awarded under the grant is questionable.



incorrectly reported total program outlays and Federal share of outlays to OJP.

These items are discussed in the Findings and Recommendations section of the report.
Our scope and methodology appear in Appendix II.
#####